 AUDIT OF OUTSIDE EMPLOYMENT 

BY STAFF OF THE FEDERAL BUREAU

 OF INVESTIGATION LABORATORY 

     DIVISION’S DNA UNITS



         U.S. Department of Justice 

       Office of the Inspector General

                Audit Division 


              Audit Report 11-20
                March 2011
      AUDIT OF OUTSIDE EMPLOYMENT BY STAFF OF THE 

           FEDERAL BUREAU OF INVESTIGATION 

            LABORATORY DIVISION’S DNA UNITS 


                               TABLE OF CONTENTS



Introduction................................................................................... 1 

OIG Audit Objectives and Approach................................................ 3 

Results in Brief............................................................................... 4 

Background.................................................................................... 7 

FBI Procedures for Requesting and Approving Outside 

   Employment............................................................................... 9

FBI Laboratory Employees Potentially Involved in Outside 

   Employment............................................................................... 11 

   FBI Employees Employed and Paid by the NFSTC to Perform 

    Reviews of QAS Audits ................................................................. 11 

   FBI Employees Who Participated in QAS Audits with Outside 

    Organizations as Part of Their Official FBI Duties ............................. 14 

   FBI Employees Who Had Worked for Outside Organizations before 

    Employment with the FBI ............................................................. 16 

   FBI Employees Who Participated in Non-QAS Inspections and 

    Assessments for the ASCLD/LAB as Part of Their Official FBI Duties .... 17 

Conclusion ..................................................................................... 17

Recommendations.......................................................................... 18 


ABBREVIATIONS ............................................................................ 19 


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 20 


STATEMENT ON INTERNAL CONTROLS............................................ 21 


APPENDIX I – Audit Objectives, Scope, and Methodology ............... 22 


APPENDIX II – FBI’s Response to the Draft Audit Report ............... 24 


APPENDIX III – Office of the Inspector General Analysis and 

 Summary of Actions Necessary to Close the Report ..................... 28 

    AUDIT OF OUTSIDE EMPLOYMENT BY STAFF OF THE
         FEDERAL BUREAU OF INVESTIGATION
          LABORATORY DIVISION’S DNA UNITS

Introduction

     The Federal Bureau of Investigation’s (FBI) Laboratory Division
supports the federal and non-federal criminal justice systems by:

     	 conducting scientific analyses of physical evidence;

     	 providing specialized scientific and technical support to ongoing
        investigations;

     	 developing an automated database of DNA profiles from evidence
        and individuals for examination and comparison;

     	 providing expert testimony in court; and

     	 providing specialized forensic science training, analysis, and
        technical assistance to crime laboratory personnel and crime scene
        training to law enforcement personnel.

      The FBI Laboratory Division is also the custodian of the Combined DNA
Index System (CODIS), which is composed of multiple indices, including
databases of DNA profiles from convicted offenders, forensic evidence,
arrestees, missing persons, and unidentified human remains. The CODIS
Unit, which manages the CODIS and the National DNA Index System
(NDIS), develops, provides, and supports the CODIS Program, which is used
by federal, state, and local crime laboratories in the United States and
selected international law enforcement crime laboratories to foster the
exchange and comparison of forensic DNA evidence from violent crime
investigations.

      The FBI Laboratory Division also contains the Nuclear DNA Unit, the
Mitochondrial DNA Unit, and the Federal DNA Database Unit. The Nuclear
DNA Unit (Nuclear Unit) examines evidence from alleged crimes, including
counterterrorism and intelligence-gathering efforts, threatening letters,
violent crimes, bank robberies, extortion and organized crime cases, and
other crimes investigated by the FBI.

      The Mitochondrial DNA Unit (Mitochondrial Unit) examines biological
evidence from crime scenes to determine the mitochondrial DNA sequence of
samples from hair, bone, teeth and other items that potentially contain

                                     1

mitochondrial DNA. The Mitochondrial Unit also maintains the National
Missing Person DNA Database program for the identification of missing and
unidentified persons and the Scientific Working Group DNA Analysis Methods
Population Database, which is an integrated software and database resource
for forensic comparison.

      The Federal DNA Database Unit processes known DNA samples from
the nation’s federal offenders and uploads these profiles to NDIS.

       CODIS is implemented as a database with hierarchical levels that
enable federal, state, and local crime laboratories to compare DNA profiles
electronically. The hierarchy flows upward from the local level to the state
level and then, if allowable, the national level. The FBI manages the NDIS,
the highest level in the hierarchy, and its database contains DNA profiles
uploaded by law enforcement agencies across the United States. NDIS
enables the laboratories participating in the CODIS program to electronically
compare DNA profiles on a national level.

       According to the FBI’s Operational Procedures for National DNA Index
System Quality Assurance Standards (QAS) Audits, public laboratories
participating in NDIS are required to: (1) conduct annual audits in
accordance with the FBI Quality Assurance Standards for Forensic DNA
Testing Laboratories and DNA Databasing Laboratories, which are published
by the FBI; and (2) undergo external QAS audits every 2 years by an
organization external to the public laboratory. Organizations providing
external QAS audit services include the National Forensic Science Technology
Center (NFSTC), the American Society of Crime Laboratory
Directors/Laboratory Accreditation Board (ASCLD/LAB), and the Potomac
Regional Audit Group.

      The NFSTC is a nonprofit corporation established in 1995 by the
American Society of Crime Laboratory Directors to provide services to
forensic laboratories. The services provided include performing QAS audits,
conducting grant progress assessments, and providing training to forensic
analysts. The NFSTC receives more than 90 percent of its funding from
Department of Justice grants.

       The ASCLD/LAB is a nonprofit corporation established in 1984 that
offers voluntary accreditation to public and private crime laboratories in the
United States and around the world. Accreditation is offered in the forensic
disciplines for which services are generally provided by forensic laboratories.
The ASCLD/LAB is funded primarily by fees charged for its services.




                                       2

       The Potomac Regional Audit Group is a consortium of laboratories in
Pennsylvania, Maryland, Virginia, North Carolina, South Carolina, Georgia,
and Kentucky that have an agreement to provide staff for the required
external QAS audits of laboratories in the group. The FBI Laboratory is part
of this group. The QAS audits are coordinated to avoid conflicts of
laboratories auditing each other. Each laboratory in the group uses its own
staff to perform the QAS audits of other laboratories in the group and pays
the salaries, travel, and expenses for its own staff to perform the QAS
audits. In addition, staff from the FBI Laboratory Division occasionally
performs external QAS audits of individual laboratories that are not part of
the Potomac Regional Audit Group. In this situation, the FBI staff performs
the audits during FBI work hours as part of their official FBI duties, and the
FBI pays the salaries, travel, and expenses associated with these audits.

      These external organizations occasionally use qualified personnel who
are detailed from other organizations and laboratories, including the FBI
Laboratory Division’s CODIS and DNA units, to perform the external QAS
audits. The FBI considers details to these three external organizations to be
a useful training experience for its employees and it traditionally has paid its
employees’ salaries while the employees are detailed to the external
organizations.1

      The audit reports produced from the external QAS audits are provided
to the audited laboratory, which sends the report and a description of its
corrective actions to the FBI Laboratory for review. The FBI reviews the
findings in these audit reports and ensures that the corrective action by the
NDIS public laboratory is suitable for bringing the laboratory into compliance
with the QAS.

OIG Audit Objectives and Approach

     The objectives of our audit were to: (1) identify and assess the
procedures through which FBI Laboratory DNA staff request and obtain
approval for outside employment, (2) determine if DNA staff and FBI
management followed the established procedures regarding outside
       1
          FBI officials told us that FBI employees benefit from details to external
organizations by learning effective ways to organize and complete a QAS audit, and the FBI
benefits by developing a cadre of personnel knowledgeable about the accreditation process
that can be utilized for internal quality assurance matters. FBI officials also told us that as
an accredited laboratory under ASCLD/LAB, the FBI Laboratory has an obligation to make its
employees available as assessors in support of the volunteer-based organization of this
accrediting body and the external organizations that play a central role in assuring quality
control in public laboratories. The FBI officials stated that for these reasons, the FBI
Laboratory has traditionally paid its employees’ salaries while the employees are detailed to
the external organizations.


                                              3

employment, and (3) determine whether outside employment by DNA staff
creates the reality or appearance of conflicts of interest.

     To accomplish these objectives, we interviewed FBI Headquarters and
Laboratory officials regarding the FBI’s policies and procedures for outside
employment, including the:

      	 Assistant Director of the FBI’s Office of Integrity and Compliance;

      	 Assistant Director and Deputy Assistant Director of the FBI
         Laboratory; and

      	 Chief of the FBI Laboratory’s Biometrics Analysis Section.

       We also interviewed the unit chiefs of each of the FBI Laboratory DNA
units, as well as employees within those units that either participated in, or
signed agreements to participate in, outside employment activities. In
addition, we reviewed various documents maintained by the Laboratory
Division regarding outside employment requests and approvals, position
descriptions, employee lists, and policies and procedures regarding QAS
audits. Details of our audit scope and methodology are contained in
Appendix I to this report.

Results in Brief

       Since 2002, two FBI Laboratory Division employees have worked for
an outside organization to review QAS audits and they received payment for
this work from the outside organization. An additional 23 FBI Laboratory
Division employees had performed or observed QAS audits either as part of
their official FBI duties without being paid by an outside organization, or
prior to being employed by the FBI.

       Of these 25 FBI employees, 2 employees reviewed QAS audit
documents prepared by NFSTC and were each paid about $13,625 by the
NFSTC for this work from January 2009 through July 2010. They reviewed
approximately 109 of the NFSTC's QAS audit documents before those
documents were finalized and sent to the NDIS public laboratory, and
subsequently to the FBI. One of the 2 employees estimated that the
combined time the 2 employees spent reviewing each of the 109 audit
documents was from about 1 hour and 20 minutes to about 3 hours, and the
reviews were primarily performed on nights and weekends. Both employees
requested and received the appropriate approval from FBI Laboratory
officials to engage in this outside employment.



                                       4

      However, we determined that FBI and Department policy prohibit
employees from engaging in outside employment that involves a
Department grant. Over 90 percent of the NFSTC is funded from
Department of Justice grants. Therefore, the FBI Laboratory did not comply
with FBI and Department policies when approving the outside employment
engagements for these two FBI laboratory employees, and it is likely that
the NFSTC compensated these two FBI employees using Department of
Justice grant funds. Such outside employment is in direct conflict with the
FBI's outside employment rules, as well as the Department regulation on
which those rules are based, which is designed to prevent actual and
apparent financial conflicts of interest.

      We also believe that the FBI Laboratory should not allow its staff to be
paid by outside organizations for performing any CODIS-related work,
regardless of whether the organization is funded by Department grant
money. Because the FBI is the custodian of CODIS and approves which
federal, state, and local laboratories can participate in CODIS, we consider
such outside work to be inconsistent with standards issued by the Office of
Government Ethics.

      An FBI official who approved the outside employment for the two
employees told us that in July 2010, more than 1.5 years after she approved
the outside employment, she became aware of the extent of Department
grant funding received by the NFSTC when a congressional staffer raised
these concerns to the FBI. She then requested advice from the FBI’s Office
of Integrity and Compliance. The Assistant Director of the FBI’s Office of
Integrity and Compliance advised her that, because of the extent of the
funding, the employees should curtail any activity with the NFSTC out of an
“abundance of caution.” On July 31, 2010, the approving official terminated
the approvals for these two employees to participate in outside employment
with the NFSTC. On July 31, 2010, the NFSTC also terminated the work
agreements with these two employees effective August 31, 2010.

      As noted below, for the remaining 23 employees who performed or
observed QAS audits, the outside work performed or agreed to be performed
was either part of the FBI employees’ official duties and the employees were
not paid by the outside organization, or the outside work occurred prior to
employment with the FBI.

         Nineteen employees performed or observed QAS audits for the
          NFSTC, the ASCLD/LAB, the Potomac Regional Audit Group, or
          individual external laboratories as part of their official FBI duties.
          Three of the 19 employees signed formal work agreements with the
          NFSTC, performed or observed the QAS audits during official FBI


                                       5

         duty hours, and received their salaries and payment for all travel
         and expenses associated with the audits from the FBI and not the
         NFSTC. Two of the 19 employees signed formal work agreements
         with the NFSTC but had not performed any QAS audits for the
         NFSTC. These two employees performed or observed QAS audits
         for the ASCLD/LAB during official FBI duty hours, and received
         payment for all salary and travel and expenses associated with the
         audits from the FBI, not the ASCLD/LAB. Seven of the remaining
         14 employees performed or observed QAS audits for the
         ASCLD/LAB during official FBI duty hours, and received payment for
         salary and all travel and expenses associated with the audits from
         the FBI, not the ASCLD/LAB. The remaining seven employees
         worked on one or more QAS audits of individual external
         laboratories. These audits were performed during official FBI duty
         hours, and the FBI paid the employees’ salaries, travel, and
         expenses associated with the audits.

         In addition, 11 of the 19 employees also participated on one or
         more QAS audits of other laboratories in the Potomac Regional
         Audit Group. The employees performed the QAS audits during
         official FBI duty hours, and the FBI paid all salary, travel, and
         expenses associated with the audits.

      	 Four employees performed QAS audits before the employees were
         hired by the FBI. Two of the four employees performed QAS audits
         for the NFSTC and received payment from the NFSTC for expenses
         associated with the audits. The other two employees performed
         QAS audits for individual external laboratories and received
         payment from the non-FBI laboratory that employed them for
         salaries and expenses associated with the audits. Since being hired
         by the FBI, these four employees have not performed any QAS-
         related work outside the FBI.

       Because the above QAS work was performed as part of the employees’
official FBI duties, or before the employees were hired by the FBI, no written
approval for this work was required, and we do not take exception to the
outside work performed by these 23 employees. However, we determined
that the signed work agreements with the NFSTC for the five employees who
were employed by the FBI mischaracterized the relationship between the
employees and NFSTC by not indicating the employees were performing the




                                      6

audits as part of their official FBI duties, instead of as employed consultants
of the NFSTC.2

       In addition to the 25 FBI Laboratory Division employees who
performed, observed, or reviewed external QAS audits, the ASCLD/LAB
identified, and the FBI confirmed, 34 additional FBI Laboratory Division
employees who performed non-QAS inspections and assessments of external
laboratories for the ASCLD/LAB during official FBI duty hours, and received
from the FBI payment for salary and all travel and expenses associated with
the inspections and assessments, not the ASCLD/LAB. Because the work
was performed as part of the employees’ official FBI duties during FBI official
work hours and was paid for by the FBI, we found no basis to question the
employees’ participation in this work.

      We did not find evidence that the FBI employees’ involvement in
the QAS audits for the NFSTC gave the NFSTC any advantage over the
other organizations performing QAS audits.

Background

      This audit arose as a result of a letter, dated August 6, 2010, from
Senator Richard Shelby of Alabama to the FBI expressing concerns about
several FBI Laboratory employees who were “moonlighting” for the NFSTC.
Senator Shelby stated that these employees were working as either quality
assurance standards auditors or as contractors performing quality reviews of
DNA quality assurance audit reports for the NFSTC assessment program. In
particular, Senator Shelby’s letter expressed concern regarding two FBI
employees who were employed by the NFSTC to review DNA quality
assurance reports prior to the reports being issued to the audited laboratory.


       2
          While the FBI agreed that the work agreements did not disclose that the work was
being performed as part of the employees’ official FBI duties, the FBI did not agree that the
work agreements mischaracterized the relationship, but rather that the work agreements
omitted a discussion of the actual nature of the relationship. However, we note that the
Department’s supplemental regulation (5 C.F.R § 3801.106) defines outside employment as
any form of employment, business relationship, or activity, involving the provision of
personal services whether or not for compensation, other than in the discharge of official
duties. Because the work agreements did not disclose that the audit services were being
performed as part of the employees’ official FBI duties, we believe the work agreements, as
stated, constituted outside employment within the above stated definition. We further
believe that the work agreements needed to disclose that the work was being performed as
part of the employees’ official FBI duties for the work to not be viewed as outside
employment. Further, the signed work agreements for all five employees stated that the
employees would be paid by the NFSTC for the consultant work, when in fact they were not.
For these reasons, we believe the work agreements did mischaracterize the relationship
between the FBI Laboratory employees and the NFSTC.


                                             7

Senator Shelby’s letter stated that this provided an unfair advantage to the
NFSTC and the laboratories that were audited by the NFSTC.

       As the custodian of CODIS, the FBI approves which federal, state, and
local laboratories can participate in CODIS. The FBI also reviews the QAS
audit report supplied to the audited laboratory and any corrective actions
taken by the laboratory based on findings in the report. The NFSTC and the
FBI QAS process is described below. The other QAS review organizations
follow a similar process.

     	 A public NDIS laboratory needs an external QAS audit of its DNA
        laboratory and can decide to use the NFSTC to perform the audit.

     	 The NFSTC recruits qualified auditors (some can be FBI Laboratory
        employees) to work with its internal staff to conduct the QAS audit
        of the NDIS public laboratory and complete the QAS audit
        document.

     	 The NFSTC auditors submit the QAS audit document to the NFSTC
        for a quality review.

     	 An NFSTC team of quality assessors conducts a quality review of
        the QAS audit document to ensure that the NFSTC auditors
        completed the audit document properly and interpreted the QAS
        accurately.

     	 The NFSTC sends the QAS audit document to the NDIS public
        laboratory.

     	 The NDIS public laboratory addresses any findings and submits the
        audit document along with documentation of corrective actions to
        the FBI NDIS Custodian, who is an employee of the FBI
        Laboratory’s CODIS Unit.

     	 The NDIS Custodian provides the QAS audit document and
        corrective action documentation to the FBI NDIS Audit Review Panel
        Chair, who is also an employee of the FBI Laboratory’s CODIS Unit.

     	 The NDIS Audit Review Panel Chair assigns a panel of reviewers
        (two FBI and two non-FBI QAS auditors) to review the QAS audit
        document and any corrective action documentation from the NDIS
        public laboratory. This panel determines if the findings in the audit
        document are correct, and corrective action by the NDIS public



                                      8

         laboratory is suitable for bringing the laboratory back into
         compliance with the QAS.

      	 The NDIS Audit Review Panel members send their observations and
         recommendations back to the NDIS Review Panel Chair. If
         additional information is needed, the Chair communicates with the
         laboratory to obtain more documentation and the panel review
         process may be repeated.

      	 When the NDIS Audit Review Panel and Chair are satisfied that the
         NDIS public laboratory is in compliance with the QAS, the Chair will
         recommend to the NDIS Custodian that the QAS audit be closed.

      	 The NDIS Custodian advises the NDIS public laboratory that it is in
         compliance with the QAS and that the audit is closed.

FBI Procedures for Requesting and Approving Outside Employment

       In general, the Standards of Ethical Conduct for Employees of the
Executive Branch issued by the Office of Government Ethics prohibit outside
employment for employees of the Executive Branch if it is already prohibited
by statute (such as the financial conflict of interest statute, 18 U.S.C. § 208)
or an agency supplemental regulation (such as the Department of Justice's
supplemental regulation regarding outside employment, 5 C.F.R. § 3801.106),
or if participation in the outside employment "would require the employee's
disqualification from matters so central or critical to the performance of his
official duties that the employee's ability to perform the duties of his position
would be materially impaired."

     The Department’s supplemental regulation regarding outside
employment (5 C.F.R. § 3801.106) states:

         No employee may engage in outside employment that
         involves: (i) the practice of law, unless it is uncompensated
         and in the nature of community service, or unless it is on
         behalf of himself, his parents, spouse, or children; (ii) any
         criminal or habeas corpus matter, be it Federal, State, or
         local; or (iii) litigation, investigations, grants or other matters
         in which the Department of Justice is or represents a party,
         witness, litigant, investigator or grant-maker.

     The supplemental regulation defines outside employment as "any form
of employment, business relationship or activity, involving the provision of



                                       9

personal services whether or not for compensation, other than in the
discharge of official duties.”

      The supplemental regulation also states that an employee must obtain
written approval before engaging in outside employment, not otherwise
prohibited, that involves the practice of law, or a subject matter, policy, or
program that is in the employee component's area of responsibility.

      The FBI incorporated these same policies into its December 6, 2007,
Ethics and Integrity Program Manual. The FBI updated the manual in
June 2009 and renamed it the Ethics and Integrity Program Policy
Implementation Guide. The FBI updated the guide again in November 2010.

      The FBI has implemented procedures intended to ensure that the
above stated outside employment policies are followed. These procedures,
detailed in the FBI’s Ethics and Integrity Program Policy Implementation
Guide, require employees to submit requests for outside employment
through appropriate supervisory personnel for review and approval by the
appropriate division head. The policy requires the division head or designee
to determine if the nature of the outside employment is prohibited by
Department or FBI policy. The policy provides factors to consider when
making this determination including whether there are any legal restrictions
contained in statutes or departmental regulations.

       In circumstances involved in this audit, such legal restriction did exist
in the Department’s supplemental regulation 5 C.F.R. § 3801.106. That
regulation prohibits any employee from engaging in outside employment
that involves grants or other matters in which the Department is a grant-
maker. While the FBI policy implementation guide states that legal
restrictions to the requested employment should be considered, it does not
specifically instruct the division head or designee to determine whether the
outside employment request should be denied because it involves a grant or
other matters in which the Department is a grant-maker. We believe the
policy implementation guide should be revised to specifically incorporate
such a determination before a decision is reached regarding whether or not
to approve outside employment requests.

       An official in the Laboratory Division’s security office told us that his
job is to review the potential employer for security concerns and he was not
required to conduct a conflict of interest review. He believed that the official
who signs the form approving the outside employment is responsible for
determining if there are any conflicts of interest between the potential
employer and the employee or the FBI.



                                       10

      In this case, the Deputy Assistant Director, acting for the Assistant
Director of the Laboratory Division, approved the outside employment
requests for the two employees who worked for the NFSTC. The Deputy
Assistant Director agreed with the security office official that it is the
approving official’s responsibility to identify potential conflicts.

FBI Laboratory Employees Potentially Involved in Outside
Employment

       To determine whether the DNA staff and FBI management followed the
established procedures regarding outside employment, and whether outside
employment by DNA staff created the reality or appearance of a conflict of
interest, we: (1) analyzed data regarding outside employment activities by
FBI Laboratory DNA Unit employees from FY 2002 through September 13,
2010, and (2) interviewed laboratory employees and FBI officials regarding
the circumstances surrounding the outside employment and the process for
requesting and approving the outside employment.

      Based on data provided by the FBI and verified by data from the
NFSTC, and ASCLD/LAB, we identified 25 FBI Laboratory DNA Unit
employees who performed or observed outside activities related to the QAS
audits from FY 2002 through September 13, 2010, for the NFSTC, the
ASCLD/LAB, the Potomac Regional Audit Group, or individual external
laboratories. The ASCLD/LAB identified, and the FBI confirmed, 34
additional FBI Laboratory Division employees who performed non-QAS
inspections and assessments for the ASCLD/LAB. Our analyses of these
outside activities follow.

FBI Employees Employed and Paid by the NFSTC to Perform Reviews of QAS
Audits

      Two FBI Laboratory DNA Unit employees entered into work
agreements in January 2009 with the NFSTC to review the NFSTC's QAS
audit documents before those documents were finalized and sent to the
NDIS public laboratory. The employees, who served as expert consultants
to the NFSTC, performed the work outside of their official duty hours and
received compensation for their work from the NFSTC.

      In late 2008, both employees sought and obtained written permission
to engage in outside employment from FBI management. According to the
two employees, each of the two employees reviewed about 109 QAS audit
documents for the NFSTC and was paid $125 for each review. The two
employees spent from 1 hour and 20 minutes to 3 hours reviewing each of
the 109 QAS audit documents, and the review work was performed primarily

                                      11

on nights and weekends. Each of the two employees was paid about
$13,625 by the NFSTC for the review work.

         At the time of the request and approval of this outside employment,
the FBI’s procedures for such requests and approvals were contained in the
FBI's December 6, 2007, Ethics and Integrity Program Manual. The manual
stated that "No employee may engage in outside employment that involves .
. . (iii) . . . grants . . . in which the Department of Justice is or represents a .
. . grant-maker." The manual further defines "outside employment" as "any
form of employment . . . involving the provision of personal services whether
or not for compensation, other than in the discharge of official duties." This
FBI guidance mirrors the language of the Department of Justice's
supplemental regulation (5 C.F.R. § 3801.106) regarding outside
employment.3

      Given that the NFSTC received more than 90 percent of its funding
from Department grants, these employees presumably received
compensation for their work for the NFSTC from Department grant funds.
As a result, under the quoted provisions of the FBI's Ethics and Integrity
Program Manual, FBI management should not have approved the outside
employment requests.4

       The approving officials told us that they approved the requests
because they were not aware of the extent of grant funding that the NFSTC
received from the Department. However, the prohibition contained in the
FBI and Department policy does not indicate the prohibition is applicable
only if the amount of Department grant funding exceeds a certain amount.
As a result, this outside employment was in direct conflict with the FBI's


       3
          At the audit close-out meeting FBI officials informed us that the FBI’s Office of
Integrity and Compliance has sought and received additional clarification from the
Department’s Office of Government Ethics. Specifically, the Office of Integrity and
Compliance requested guidance regarding how to determine whether outside employment
at colleges, universities, and other similar institutions “involves” grants. FBI officials told us
that the Department’s Office of Government Ethics stated that the Department would
determine whether the specific department or component of the college for which an
employee wished to work received a grant from the Department, as opposed to any part of
the college, before applying this rule. FBI officials told us that they will be taking this
additional guidance into account when they revise the FBI’s process for approval of outside
employment.
       4
           The Assistant Director for the FBI Laboratory Division initially approved the outside
employment request for one of the two employees. However, the approved request was
lost in transit to FBI Headquarters and a second request was approved by the Deputy
Assistant Director for the FBI Laboratory Division. The Deputy Assistant Director also
approved the outside employment request for the other employee.


                                               12

outside employment rules, and the Department regulation on which those
rules are based.

       We believe the approving officials should have been aware of the
funding relationship between the Department and the NFSTC and recognized
the impropriety of the outside employment relationship. Because the FBI
Laboratory employees sought and obtained permission to engage in this
outside employment, and there is no evidence that they misrepresented the
facts surrounding their requests, they were entitled to rely on the permission
they received. Yet, the FBI needs to ensure that these employees, and all
DNA unit employees, understand that the Department provides extensive
grant funding to entities in the forensic science community and that the
employees have a duty to consider the existence of such funding when
requesting outside forensic science-related employment.

       We also believe that the FBI should not allow its staff to be paid by
outside organizations for performing CODIS-related work. Because the FBI
is the custodian of CODIS and approves which federal, state, and local
laboratories can participate in CODIS, such outside work is inconsistent with
Office of Government Ethics standards requiring “employee's disqualification
from matters so central or critical to the performance of his official duties
that the employee's ability to perform the duties of his position would be
materially impaired."

      One of the approving officials told us that in July 2010, more than a
year and a half after she approved the outside employment, she became
aware of the extent of Department grant funding received by the NFSTC
after a congressional staffer raised these concerns to the FBI. The
approving official then requested advice from the FBI’s Office of Integrity
and Compliance. The Assistant Director of the FBI’s Office of Integrity and
Compliance advised the approving official that, because of the extent of the
funding, the employees should curtail any activity with the NFSTC out of an
“abundance of caution.” On July 31, 2010, the approving official terminated
the approvals for the two employees to participate in the outside
employment with the NFSTC. On July 31, 2010, the NFSTC also terminated
the work agreements with these two employees effective August 31, 2010.

      The Office of Government Ethics Standards of Ethical Conduct for
Employees of the Executive Branch provides that a violation of supplemental
agency regulations may be cause for appropriate disciplinary action. We
asked an FBI management official if any disciplinary action had been taken
against the approving officials for the two approvals for outside employment
that were prohibited by Department supplemental regulation 5 C.F.R. §
3801.106. The FBI management official told us that the two approving


                                     13

officials had been counseled by the Executive Assistant Director for the
Science and Technology Branch about proper procedures for vetting outside
employment.

FBI Employees Who Participated in QAS Audits with Outside Organizations as
Part of Their Official FBI Duties

      Nineteen FBI Laboratory DNA Unit employees participated in QAS
audits with either the NFSTC, the ASCLD/LAB, the Potomac Regional Audit
Group, or individual external laboratories as part of their official FBI duties
as discussed below.

      	 Five of the 19 employees entered into work agreements with the
         NFSTC to participate in QAS audits of NDIS public laboratories.
         None of these five employees sought or received written approval
         to engage in outside employment with the NFSTC because their
         participation in the QAS audits was considered part of their official
         FBI duties and they did not receive any payment from NFSTC. The
         FBI Laboratory requires its employees to participate in at least one
         QAS audit before they are permitted to serve on FBI NDIS review
         panels, which assess audits of NDIS public laboratories on behalf of
         the FBI. We determined that two of these five employees had not
         participated in QAS audits for the NFSTC, but had participated in
         such audits for the ASCLD/LAB. The ASCLD/LAB did not require the
         employees to enter into work agreements. These two employees
         were not compensated by the ASCLD/LAB, performed the QAS
         audits during official FBI duty hours, and the FBI paid all salary,
         travel, and expenses associated with the audits. Likewise, the
         other three employees who signed work agreements with the
         NFSTC were not compensated by the NFSTC, performed the QAS
         audits during official FBI duty hours, and the FBI paid all salary,
         travel, and expenses associated with the audits.5 In addition, one
         of the five employees also participated on a QAS audit of another
         laboratory in the Potomac Regional Audit Group. The employee
         performed the QAS audit during official FBI duty hours, and the FBI
         paid all salary, travel, and expenses associated with the audit.

          Notwithstanding the agreements they signed, these five employees
          did not engage in outside employment and were not required to
          obtain approval for outside employment. The participation by these


      5
        One of the three employees who had signed work agreements with the NFSTC and
who had performed QAS audits for the NFSTC left employment with the FBI on April 18,
2008.


                                        14

  employees in the QAS audits for the NFSTC or the ASCLD/LAB was
  part of their official FBI duties. They each believed that the work
  agreements they entered into with the NFSTC only indicated their
  qualifications to do the audit work and was not an agreement to
  receive payment from the NFSTC.

  The FBI Ethics and Integrity Program Manual defines an activity as
  outside employment if it is "other than in the discharge of official
  duties." We believe that the FBI managers and employees
  understood that they were performing this work in the course of
  their official duties. The fact that the employees entered into
  "business consultant agreements" with the NFSTC does not affect
  that determination. The FBI's payment of the employees’ salaries,
  travel costs, and expenses further supports the view that all parties
  concerned understood that these employees were conducting FBI
  business.

  We found nothing improper about the FBI Laboratory's requirement
  that its employees participate in a QAS audit before serving on an
  FBI NDIS review panel. Nor do we see anything inappropriate in
  the FBI Laboratory's determination that participation in a QAS audit
  by these employees on behalf of the NFSTC or the ASCLD/LAB was
  part of their official duties.

  We do, however, believe that FBI Laboratory DNA Unit personnel
  should not enter into agreements with outside entities that
  mischaracterize the relationship between the employee and the
  outside entity. Although these five FBI Laboratory DNA Unit
  employees were not actually employed by the NFSTC, the
  agreements between them and the NFSTC created the appearance
  of an improper outside employment relationship. After we
  discussed this issue with FBI staff on January 27, 2011, the
  agreements between the NFSTC and four of the five employees
  were terminated. The remaining employee no longer works for the
  FBI.

	 Seven of the 19 FBI Laboratory DNA Unit employees participated in
   QAS audits of NDIS public laboratories with the ASCLD/LAB. As
   with the FBI employees discussed previously, none of these
   employees sought or received approval to engage in outside
   employment with the ASCLD/LAB because their participation in the
   QAS audits was considered part of their official FBI duties. The
   seven employees performed the QAS audits during official FBI duty
   hours, and the FBI paid all travel and expenses associated with the


                               15

        audits. In addition, five of the seven employees also participated
        on one or more QAS audits of other laboratories in the Potomac
        Regional Audit Group. The employees performed the QAS audits
        during official FBI duty hours, and the FBI paid all salary, travel,
        and expenses associated with the audits.

        These employees knew that their participation in the QAS audits for
        the ASCLD/LAB and the Potomac Regional Audit Group was part of
        their official FBI duties. We see nothing inappropriate in the FBI
        Laboratory's determination that participation in a QAS audit by
        these employees on behalf of the ASCLD/LAB or the Potomac
        Regional Audit Group was part of their official duties.

     	 Seven employees worked on one or more QAS audits of individual
        external laboratories. These audits were performed as part of the
        employees’ official FBI duties during official FBI duty hours and the
        FBI paid the employees’ salaries, travel, and expenses associated
        with the audits.

      With the exception of the two FBI employees who were paid by the
NFSTC to perform reviews of the QAS audit reports, we found no distinction
in the way the FBI treated its staff’s involvement with the NFSTC,
ASCLD/LAB, or the Potomac Regional Audit Group. Specifically, we found
that the FBI Laboratory provided staff at no cost to the NFSTC and the
ASCLD/LAB to perform and observe QAS audits. In addition, the FBI
Laboratory used its own staff to perform QAS audits for individual
laboratories in the Potomac Regional Audit Group and other laboratories
outside that group at no cost to those laboratories. Therefore, we found no
evidence that the FBI employees’ involvement in the QAS audits for the
NFSTC gave the NFSTC any advantage over the other organizations
performing QAS audits.

FBI Employees Who Had Worked for Outside Organizations before
Employment with the FBI

       Four employees performed QAS audits before the employees were
hired by the FBI. Two FBI Laboratory DNA Unit employees signed work
agreements with the NFSTC and performed QAS audits for the NFSTC before
being hired by the FBI. The other two employees performed QAS audits for
individual external laboratories and received payment from the non-FBI
laboratory that employed them for salaries and expenses associated with the
audits. None of these four FBI employees participated in QAS audits since
beginning their FBI employment.



                                     16

       We concluded that because these NFSTC agreements predated the
employees’ FBI employment and because none of the employees
participated in any QAS audits while employed by the FBI, they have not
engaged in outside employment. We also found no indication that these
employees have a financial conflict of interest stemming from their previous
work for the NFSTC or individual external laboratories.

       However, as noted previously, the FBI's Ethics and Integrity Program
Manual, subsequently renamed the FBI’s Ethics and Integrity Program Policy
Implementation Guide, prohibits employees from engaging in outside
employment that involves grants in which the Department is the grant
maker. Accordingly, we believe that both employees who signed work
agreements with the NFSTC should formally terminate those agreements to
make clear that they are not engaged in an improper outside employment
relationship with a Department of Justice grantee. After we discussed this
issue with FBI staff on January 27, 2011, the agreements between the
NFSTC and each of the two employees were terminated.

FBI Employees Who Participated in Non-QAS Inspections and
Assessments for the ASCLD/LAB as Part of Their Official FBI Duties

       In addition to the 25 FBI Laboratory Division employees who
performed, observed, or reviewed external QAS audits, the ASCLD/LAB
identified and the FBI confirmed 34 additional FBI Laboratory Division
employees who performed non-QAS inspections and assessments of external
laboratories for the ASCLD/LAB during official FBI duty hours. These
employees received from the FBI payment for salary and all travel and
expenses associated with the inspections and assessments, not the
ASCLD/LAB. Because the work was performed as part of the employees’
official FBI duties during FBI official work hours, and was paid for by the FBI,
we found no basis to question the employees’ participation in this work.

Conclusion

      From FY 2002 through September 13, 2010, 25 FBI Laboratory DNA
Unit employees worked for outside organizations or entered into agreements
to work for outside organizations to either review, perform, or observe QAS
audits.

      We concluded that the outside work for 2 of the 25 employees was
prohibited by Department regulation and FBI policy, and therefore was
improperly approved by FBI management. We did not take exception to the
outside work for the remaining 23 employees, because the work was either
performed as part of the employees’ official FBI duties (19 employees) or


                                      17

was performed prior to the employees being hired by the FBI (4 employees).
However, we noted that 5 of the 19 employees who performed the outside
work as part of their official FBI duties signed work agreements with the
outside organizations that mischaracterized the relationship between the FBI
employee and the outside organization. Further, two of the four employees
who participated in the outside work before being hired by the FBI did not
terminate their work agreements after being hired by the FBI. After we
discussed this issue with FBI staff on January 27, 2011, the agreements
between the NFSTC and each of the two employees were terminated.

       In addition to the 25 FBI employees who participated in outside
activities related to QAS audits, an additional 34 FBI Laboratory Division
employees participated in non-QAS inspections and assessments for outside
organizations as part of their official FBI duties.

Recommendations

We recommend that the FBI:

1.	 Revise the FBI’s Ethics and Integrity Program Implementation Guide to
    require the division head or designee to determine whether requested
    outside employment involves a grant or other matters in which the
    Department is a grant-maker before deciding whether or not to approve
    the request.

2.	 Ensure that all FBI Laboratory employees understand that the
    Department provides extensive grant funding to entities in the forensic
    science community and that the employees have a duty to consider the
    existence of such funding when requesting outside forensic science
    related employment.

3.	 Establish procedures to ensure that the FBI Laboratory does not approve
    any requests for staff to be paid by outside organizations for performing
    CODIS-related work, regardless of whether the outside organization is a
    recipient of Department grant funds.

4.	 Establish procedures to ensure that FBI Laboratory personnel performing
    official FBI duties with outside entities do not enter into agreements with
    those entities that characterize the relationship as outside employment
    and create the appearance of a conflict of interest.




                                      18

              ABBREVIATIONS 



ASCLD/LAB  American Society of Crime Laboratory
           Directors Laboratory Accreditation
           Board
CODIS      Combined DNA Index System
Department Department of Justice
DNA        Deoxyribonucleic Acid
FBI        Federal Bureau of Investigation
NDIS       National DNA Index System
NFSTC      National Forensic Science Technology
           Center
QAS        Quality Assurance Standards




                       19

               STATEMENT ON COMPLIANCE WITH 

                   LAWS AND REGULATIONS 


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
FBI’s management complied with federal laws and regulations for which
non-compliance, in our judgment, could have a material effect on the results
of our audit. The FBI’s management is responsible for ensuring compliance
with federal laws and regulations applicable to the FBI. In planning our
audit, we identified the following laws and regulations that concerned the
operations of the auditee and that were significant within the context of the
audit objectives.

        5 C.F.R. § 3801.106

       Our audit included examining, on a test basis, the FBI’s compliance
with the aforementioned laws and regulations that could have a material
effect on the FBI’s operations, through reviewing the FBI’s procedures for
requesting and approving outside employment, interviewing FBI
management officials involved in the approval of outside employment,
analyzing documentation related to requests and approvals for outside
employment, and interviewing FBI employees who participated in outside
employment activities.

      Except for the instances of non-compliance identified in our audit, we
did not identify any areas where the FBI was not in compliance with the laws
and regulations referred to above. With respect to activities that were not
tested, nothing came to our attention that caused us to believe that FBI
management was not in compliance with the laws and regulations cited
above.




                                     20

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the FBI’s internal controls was
not made for the purpose of providing assurance on its internal control
structure as a whole. The FBI’s management is responsible for the
establishment and maintenance of internal controls.

      As noted in this report, we identified a deficiency in the FBI’s internal
controls related to the evaluation of outside employment requests before
approval that is significant within the context of the audit objectives and
based upon the audit work performed that we believe adversely affects the
FBI’s ability to ensure that approved outside employment complies with the
FBI’s rules for outside employment and with the Department of Justice
regulations on which those rules are based.

       Because we are not expressing an opinion on the FBI’s internal control
structure as a whole, this statement is intended solely for the information
and use of the auditee. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                       21

                                                             APPENDIX I

           Audit Objectives, Scope, and Methodology

       We completed an audit of outside employment by staff of the FBI
Laboratory Division’s DNA Units. The objectives of our review were to:
(1) identify and assess the procedures through which FBI Laboratory DNA
staff report and obtain approval for outside employment, (2) determine if
DNA staff and FBI management followed the established procedures
regarding outside employment, and (3) determine whether outside
employment by DNA staff creates the reality or appearance of conflicts of
interest.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit generally covered outside employment activities by
staff of the FBI Laboratory Division’s DNA Units from FY 2002 through
September 13, 2010.

     To accomplish the audit objectives, we interviewed various FBI
Headquarters and Laboratory officials regarding the Bureau’s policies and
procedures for outside employment, including the:

     	 Assistant Director of the FBI’s Office of Integrity and Compliance;

     	 Assistant Director and Deputy Assistant Director of the FBI
        Laboratory; and

     	 Chief of the FBI Laboratory’s Biometrics Analysis Section.

       We also obtained from the FBI a list of all staff from its Laboratory
Division’s DNA Units who had participated in outside employment from
FY 2002 through September 13, 2010. To verify the accuracy of the data
provided by the FBI, we analyzed data maintained by the National Forensic
Science Technology Center regarding participants on Quality Assurance
Standards audits from FY 2002 through September 13, 2010. We also sent
verification requests to the American Society of Crime Laboratory Directors
Laboratory Accreditation Board.



                                     22

      Finally, we interviewed the unit chiefs for each of the FBI Laboratory
Division’s DNA units, and various employees within those units involved in
outside employment activities. We also reviewed various documents
maintained by the Laboratory Division regarding outside employment
requests and approvals, position descriptions, employee lists, and policies
and procedures regarding the Quality Assurance Standards audits.




                                      23

                                                                                       APPENDIX II

      FBI’s Response to the Draft Audit Report



                                                     U.S. Department of Justice


                                                     Federal Bureau of Investigation


                                                     Washington. D. C. 20535-0001

                                                     March 10,2011


Cynthia A. Schnedar
Office of the Inspector General
U.S. Department of Justice
950 Pennsylvania Avenue, Northwest
Washington, D.C. 20530

Dear Ms. Schnedar:

               The Federal Bureau ofInvestigation (FBI) appreciates the opportunity to review
and respond to your report entitled, "Audit of Outside Employment By Staff of the Federal
Bureau of Investigation Laboratory Division's DNA Units" (hereinafter, "Report").

              We are pleased by the Report's conclusion that in the vast majority of cases
examined by the OIG (23 out of25), FBI employees participated in Quality Assurance Standard
(QAS) audits at the National Forensic Science Technology Center (NFSTC) as part of their
official duties -- for which they reCeived no outside compensation -- or before they w"ere hired by
the FBI. Specifically, the OIG did "not take exception to the outside work performed by these 23
employees." While the OIG found that the remaining two employees received payment from the
NFSTC for audit work while employed at the FBI, the Report also notes that the FBI Laboratory
promptly terminated these two employees' work agreements once it recognized the potential
conflict of interest based on the NFSTC's receipt of federal grant funds.

               We value the Report's determination that the OIG "[f]ound no evidence that the
FBI employees' involvement in these QAS audits for the NFSTC gave the NFSTC any advantage
over other organizations performing QAS audits."

               Since its implementation, the FBI's Combined DNA Index System (CO DIS)
(which includes DNA profiles from convicted offenders, forensic evidence, arrestees, missing
persons, and unidentified human remains) has aided approximately 130,000 investigations. The
CODIS Program has a long-standing commitment to the quality and integrity of the DNA records
it manages and continually strives to improve its processes. One of the many checks and
balances which encompass CODIS operations includes a robust and thorough audit program. As
the party responsible for managing this audit program, the FBI Laboratory has a number of
employees who are highly experienced in the audit process and whose subject matter expertise is
valued by organizations which participate in the audit program.

      In conclusion, based upon a review of the Report, the FBI concurs with all four
recommendations. The FBI appreciates the professionalism exhibited by your staff to complete




                                               24

this audit. Enclosed herein is the FBI's response to the recommendations in the Report. Please
feel free to contact me should you have any questions.

                                                    Sincerely yours~



                                                    AmyJoLyuns
                                                    Assistant Director

Enclosure




                                              25

   THE FEDERAL BUREAU OF INVESTIGATION (FBI) RESPONSE TO THE
             OFFICE OF INSPECTOR GENERAL AUDIT OF
     OUTSIDE EMPLOYMENT BY STAFF OF THE FEDERAL BUREAU OF
         INVESTIGATION LABORATORY DIVISION'S DNA UNITS


Recommendation #1: "Revise the FBI's Ethics and Integrity Program Implementation
Guide to require the division head or designee to determine whether requested outside
employment involves a grant or other matters in which the Department is a grant-maker
before deciding whether or not to approve the request."

FBI Response to Final Draft:
The FBI concurs with this recommendation. To encourage the proper review of Outside
Employment requests and to ensure regulations are adhered to, the FBI is currently
implementing an electronic outside employment form and process to replace the current
paper form. Prior to completing the electronic form, employees will be required to
complete a preliminary electronic questionnaire tailored to identify potential conflicts of
interest. Specifically, employees will be asked, among other things, whether their
prospective employer is a DO] Grant recipient. Employees are also asked whether their
prospective employment is with a university or non-profit, local, county, state, or federal
agency and if so, to obtain certification from the entity as to whether they are recipients of
DO] grants. If the employee responds affirmatively to these or the other questions listed,
they will be immediately directed to contact the Office ofIntegrity and Compliance (OIC)
for a Standard of Conduct Review. OIC will discuss the situation with the employee and
determine whether the request may be approved. As these revisions to the Outside
Employment process involve the development and implementation of an IT based
program, it is estimated for completion in approximately six months. Additionally, these
changes will be incorporated in the FBI's Ethics and Integrity Program Implementation
Guide.

Recommendation #2: "Ensure that all FBI Laboratory employees understand that the
Department provides extensive grant funding to entities in the forensic science community
and that the employees have a duty to consider the existence of such funding when
requesting outside forensic science related employment."

FBI Response to Final Draft:
The FBI concurs with this recommendation. As noted above, the electronic Outside
Employment form and process has been created in part to help identify potential conflicts
of interest such as prospective employment with entities receiving DO] grant funding.
FBI Laboratory employees will be required, as will all other FBI employees, to complete
this initial Outside Employment questionnaire tailored to identify numerous types of
conflicts of interests. In addition, to ensure that all FBI Laboratory employees understand
that the Department provides extensive grant funding to entities in the forensic science
community, Laboratory Executive Management (EM) will work with OIC to develop a
training presentation for all Laboratory employees to ensure that they understand the




                                            26

complexities of outside employment and the importance of determining the source of the
funding stream for such employment to avoid a conflict of interest..

Recommendation #3: "Establish procedures to ensure that the FBI Laboratory does not
approve any requests for staff to be paid by outside organizations for performing CODIS­
related work, regardless of whether the outside organization is a recipient of Department
grant funds."

FBI Response to Final Draft:
The FBI concurs with this recommendation. Per recommendation # I, the electronic
Outside Employment form and process was decided upon in part to help identify potential
conflicts of interest. The training provided to all Laboratory employees as mentioned in
response to #2 (above) will also include training to communicate that CODIS-related
activities are not eligible for outside employment.

Recommendation #4: "Establish procedures to ensure that FBI Laboratory personnel
performing official FBI duties with outside entities do not enter into agreements with
those entities that characterize the relationship as outside employment and create the
appearance of a conflict of interest."

FBI Response to Final Draft:
The FBI concurs with this recommendation. The training provided to all Laboratory
employees as noted above will ensure that Laboratory personnel performing official FBI
duties with outside entities do not enter into agreements with those entities that
characterize the relationship as outside employment and create the appearance of a
conflict of interest.




                                                                                            2




                                          27

                                                            APPENDIX III

   Office of the Inspector General Analysis and Summary
          of Actions Necessary to Close the Report

      The Office of the Inspector General (OIG) provided a draft of this audit
report to the Federal Bureau of Investigation (FBI). The FBI’s response is
incorporated in Appendix II of this final report. The following provides the
OIG analysis of the response and summary of actions necessary to close the
report.

Recommendation Number:

   1. Resolved. The FBI concurred with our recommendation to revise the
      FBI’s Ethics and Integrity Program Implementation Guide to require
      the division head or designee to determine whether requested outside
      employment involves a grant or other matters in which the
      Department is a grant-maker before deciding whether or not to
      approve the request. The FBI stated that it is implementing an
      electronic outside employment form and process to replace the current
      paper form. This new process will require employees to complete a
      preliminary electronic questionnaire tailored to identify potential
      conflicts prior to completing the electronic form. The questionnaire will
      contain questions to determine whether the prospective employer is a
      Department grant recipient, and the nature of such grants. Based on
      the employees’ responses to the questionnaire, they will be directed to
      contact the Office of Integrity Compliance to discuss the situation and
      determine whether the request may be approved. The FBI stated that
      this new process will be incorporated into the FBI’s Ethics and Integrity
      Program Implementation Guide and the FBI expects the revised
      process to be completed within 6 months.

      This recommendation can be closed when we receive documentation
      showing the revised process described above has been incorporated
      into the FBI’s Ethics and Integrity Program Implementation Guide.

   2. Resolved. The FBI concurred with our recommendation to ensure
      that all FBI Laboratory employees understand that the Department
      provides extensive grant funding to entities in the forensic science
      community and that the employees have a duty to consider the
      existence of such funding when requesting outside forensic science


                                      28

   related employment. The FBI stated that in addition to the revised
   process described under Recommendation 1, the Laboratory Executive
   Management will work with the Office of Integrity and Compliance to
   develop a training presentation for all laboratory employees to ensure
   that they understand the complexities of outside employment and the
   importance of determining the source of the funding stream for such
   employment to avoid a conflict.

   This recommendation can be closed when we receive evidence
   showing the above described training course has been developed and
   provided to all laboratory employees.

3. Resolved. The FBI concurred with our recommendation to establish
   procedures to ensure that the FBI Laboratory does not approve any
   requests for staff to be paid by outside organizations for performing
   CODIS-related work, regardless of whether the outside organization is
   a recipient of Department grant funds. The FBI stated that the new
   electronic form and process described for Recommendation 1 was
   decided upon in part to help identify potential conflicts of interest. The
   FBI also stated that the training described for Recommendation 2 will
   include training to communicate that CODIS-related activities are not
   eligible for outside employment.

   This recommendation can be closed when we receive evidence
   showing the above described training course has been developed and
   provided to all laboratory employees.

4. Resolved. The FBI concurred with our recommendation to establish
   procedures to ensure that FBI Laboratory personnel performing official
   FBI duties with outside entities do not enter into agreements with
   those entities that characterize the relationship as outside employment
   and create the appearance of a conflict of interest. The FBI stated that
   the training described for Recommendations 2 and 3 will ensure that
   laboratory personnel performing official FBI duties with outside entities
   do not enter into agreements with those entities that characterize the
   relationship as outside employment and create the appearance of a
   conflict of interest.

   This recommendation can be closed when we receive evidence
   showing the above described training course has been developed and
   provided to all laboratory employees.




                                   29

